Federal Deposit Insurance Corporation
Office of Inspector General




  Office of Inspector General
          FY 2004 Performance Plan
            (October 1, 2003 – September 30, 2004)
                                 Table of Contents

Introduction...................................................................................................... 1

Strategic Plan Framework (2004-2008)…………………………………………. 2

Change to September 30 Fiscal Year Planning and Reporting Cycle…..….……. 3

Mission and Vision........................................................................................... 4

CORE Values ................................................................................................... 6

Strategic Outlook.............................................................................................. 8

OIG Strategic Goals, Objectives, and Annual Performance Goals ..................... 13

   Tree Diagram of OIG Goals and Objectives..........................................................................14

Resource Management ................................................................................... 20

   Human Capital……………………………………………………………………………… 21
   Information Technology Management and Security………………………………………..25
   Quality, Risk Management, and Process Improvement……………………………………. 26

External Factors ............................................................................................. 28

Verification and Validation of Performance Data............................................. 30

Appendix – Summary of Audit Coverage of Strategic Goals
  and Objectives and Management Challenges …....………………………….31
Introduction

The Government Performance and Results Act of 1993 (Results Act or GPRA) was enacted to
improve the management, effectiveness, and accountability of federal programs. The Results
Act requires most federal agencies, including the FDIC, to develop a strategic plan that broadly
defines the agency’s mission and vision, an annual performance plan that translates the vision
and goals of the strategic plan into measurable objectives, and an annual performance report that
compares actual results against planned goals.

The Office of Inspector General strongly supports the Results Act and is fully committed to
applying its principles of strategic planning and performance measurement and reporting to our
operations. Doing so will enable us to demonstrate that we are providing value to the
Corporation and will help identify where changes are needed to improve organizational
effectiveness and efficiency. The OIG Strategic Plan and Annual Performance Plan lay the basic
foundation for establishing goals, measuring performance, and reporting accomplishments
consistent with the principles and concepts of the Results Act.

The OIG’s Annual Performance Plan describes what we will accomplish during the year to help
achieve our long-term strategic goals and objectives. It builds upon the OIG Strategic Plan and
bridges the gap between our strategic goals and the day-to-day activities of our staff. The plan
reflects the OIG’s emphasis on adding value to the Corporation and doing work that is
responsive and relevant to the FDIC Chairman, Congress, and corporate management. The 2004
performance plan contains goals that focus on adding value to the Corporation through our core
mission activities of audits, evaluations, and investigations; improving communications with our
stakeholders; aligning human resources to support the OIG mission, and managing our resources
effectively. In keeping with the spirit of the Results Act, the OIG is committed to the continued
development of performance indicators and goals that better measure the impact and results of
OIG work.

The OIG recognizes that strategic planning supported by performance goal setting and
measurement is an ongoing and evolutionary process that requires continuous monitoring. We
furthe r recognize the importance of results-oriented goals and alignment with the Corporation’s
strategic goals and objectives. Accordingly, we continually reevaluate our strategic and
performance plans and goals to ensure consistency with the objectives of the Results Act in
concert with the IG Act and the Corporation’s goals.




                                                1
                              FDIC Office of Inspector General
                                 Strategic Plan Framework
                             (2004-2008)
    VISION


                                                             VISION
                    The agency and Congress see us as a valuable part of the Corporation
                          and we are viewed as one of the best OIGs in government.

                                                         MISSION
       The Office of Inspector General promotes the economy, efficiency, and effectiveness of FDIC
      programs and operations, and protects against fraud, waste, and abuse, to assist and augment
     the FDIC’s contribution to the stability of, and public confidence in, the nation’s financial system.

                                                 STRATEGIC GOALS


Value and Impact                     Communication                        Human Capital                  Productivity
                                     and Outreach
OIG products will add                                                     The OIG will align             The OIG will
value by achieving                   Communications                       its human                      effectively
significant impact                   between the OIG and                  resources to                   manage its
related to addressing                the Chairman, the                    support the OIG                resources
issues of importance                 Congress,                            mission
to the Chairman, the                 employees, and other
Congress, and the                    stakeholders will be
public                               effective



                                             STRATEGIC OBJECTIVES


    OIG will contribute to                 OIG will foster                   OIG will enhance:               OIG will ensure:
       ensuring the:                         effective:

•      Protection of                 •     Agency relations              •     Workforce                 •     OIG
       insured depositors                  and                                 analysis and                    processes are
                                           communications                      planning                        efficient
•      Safety and
       soundness of                  •     Congressional                 •     Competency                •     OIG products
       FDIC-supervised                     relations and                       investments                     meet quality
       institutions                        communications                                                      standards
                                                                         •     Leadership
•      Protection of                 •     OIG employee                        development
       consumer rights                     relations and
                                           communications                •     The
•      Achievement of                                                          development of
       recovery to                   •     Relations and                       a results-
       creditors of                        communications                      oriented high
       receiverships                       with other OIG                      performance
                                           stakeholders                        culture
•      Effective
       management of
       agency resources


                                                    CORE VALUES
              Communication                                                                      Excellence
                                     Objectivity                      Responsibility
                                                               2
Change to September 30 Fiscal Year Planning and Reporting Cycle


Historically, the FDIC OIG has conducted its performance planning and reporting cycle under
the Results Act on a calendar year basis, consistent with the Corporation’s budget and
accounting cycle. However, because the OIG receives a separate appropriation based on the
typical government fiscal year ending September 30, we made a decision to change our Results
Act performance planning and reporting from a calendar year to a September 30 fiscal year cycle
beginning with fiscal year 2003. The fiscal year cycle is also consistent with the semiannual
reporting periods prescribed by the Inspector General Act. To accommodate the conversion, we
used a 9- month transition period (January 1 to September 30, 2002) for the 2002 planning and
reporting cycle.




                                               3
Mission and Vision

OIG Mission

Federal OIGs have responsibility to report on current performance and accountability and to
foster good program management to ensure effective government operations. The Inspector
General Act of 1978, as amended, created the OIGs to:1

      •    Conduct, supervise and coordinate audits and investigations relating to the programs and
           operations of their agencies;
      •    Review existing and proposed legislation and regulations to make recommendations
           concerning the impact of such legislation and regulations on economy and efficiency or
           the prevention and detection of fraud and abuse;
      •    Provide leadership for activities designed to promote economy, efficiency, and
           effectiveness, and to promote efforts to reduce fraud, waste, and abuse in the programs
           and operations of their agencies;
      •    Coordinate relationships between the agency and other Federal agencies, State and local
           government agencies, and non-government agencies to promote economy and efficiency,
           to prevent and detect fraud and abuse, or to identify and prosecute participants engaged in
           fraud or abuse;
      •    Inform their agency heads and Congress of problems in their agencies’ programs and
           operations and the necessity for and progress of corrective actions; and
      •    Report to the Attorney General whenever the Inspector General has reasonable grounds
           to believe there has been a violation of Federal criminal law.

In addition to audits and investigations referenced in the first item above, OIGs may conduct,
supervise, and coordinate inspections and evaluations, and other reviews related to the programs
and operations of their agencies.


                                       Our Mission Statement

The Office of Inspector General promotes the economy, efficiency, and

effectiveness of FDIC programs and operations, and protects against fraud, waste,

and abuse, to assist and augment the FDIC’s contribution to the stability of, and

public confidence in, the nation’s financial system.


1
    IG Act, Section 2 and Section 4.



                                                    4
                           Our Vision Statement

The agency and Congress see us as a valuable part of the Corporation and we are

viewed as one of the best OIGs in government.




                                       5
CORE Values

The OIG has adopted the following “CORE” values to guide us in achieving our mission, goals,
and objectives:


  Communication. The OIG strives for an environment of open and honest
  communication both among our people and with our customers and stakeholders. We
  listen to, learn from, and collaborate with our employees and stakeholders. We will build
  responsive and constructive relationships with corporate officials based on a shared
  commitment to improving program and operational effectiveness.

  Objectivity. The OIG will maintain personal, external, and organizational independence
  so that our opinions, conclusions, and recommendations will be impartial and will be
  viewed as impartial by knowledgeable third parties. We will exercise objective and
  unbiased judgement on all issues associated with conducting and reporting on our work.

  Responsibility. The OIG works toward ensuring that all employees have a clear
  understanding of what is expected of them. We believe that each individual is responsible
  and accountable for his or her actions and should be mindful that these actions always
  reflect on our customers’ perception of the OIG. We respect all of our employees because
  they are important, trusted, and the key to continued improvement of our services to all
  customers.

  Excellence. The OIG’s products and services must always be of the highest quality.
  They are defined by their accuracy, fairness, and usefulness to our customers. The OIG
  acknowledges that growth and vision are crucial to the success of our office. We must
  learn from the past and anticipate and prepare for the future. We are committed to taking
  actions, whenever necessary, to adapt to a changing environment in order to achieve and
  maintain the level of excellence expected of us by our customers.



The OIG also embraces the Corporation’s core values that follow:

Financial Stewardship. The FDIC is committed to being a responsible fiduciary in its efforts to
provide insured institutions the best value for their contributions to the insurance funds.

Effectiveness. The FDIC’s reputation rests on its professionalism, its adherence to the highest
ethical standards, and its skilled and dedicated workforce.

Responsiveness. The FDIC strives to respond rapidly, innovatively, and effectively to risks to
the financial system. It works effectively with other federal and state supervisors to achieve
consistency in policy and regulation. It seeks and considers information from the Congress, the
financial institution industry, individuals seeking and receiving financial services, and others

                                                6
outside the FDIC in the development of policy. The FDIC seeks to minimize regulatory burden
while fulfilling its statutory responsibilities.

Teamwork. The FDIC promotes and reinforces a corporate perspective and challenges its
employees to work cooperatively across internal and external organizational boundaries.
Fairness. The FDIC strives to treat everyone fairly and equitably. It exercises its
responsibilities with care and impartiality; promotes a work environment that is free of
discrimination and values diversity; and adheres to equal opportunity standards.
Service. The FDIC’s long and continuing tradition of public service is supported and sustained
by a highly skilled and diverse workforce that responds rapidly and successfully to change.
Integrity. The FDIC strives to perform its work with the highest sense of integrity, requiring the
agency to be, among other things, honest and fair. The FDIC can accommodate the honest
difference of opinion; it cannot accommodate the compromise of principle. Integrity is measured
in terms of what is right and just, standards to which the FDIC is committed.




                                                7
Strategic Outlook
This section summarizes the OIG’s strategic outlook as we continue to strive to achieve our
mission through accomplishment of our strategic goals and objectives.

Corporate Environment and Management Challenges at the FDIC

Corporate Environment

The strategic outlook for the OIG, established within the corporate environment, must
necessarily give primary consideration to the challenges that the Corporation will face now and
in the future in meeting its mission. Accordingly, the OIG must continua lly evaluate major
corporate challenges and issues in order to identify corporate vulnerabilities (to fraud, abuse, and
inefficient, uneconomical and ineffective activities) that we must address to meet our mission
under the Inspector General Act.

In February 2002 at an Executive Leadership Conference, FDIC Chairman Donald Powell
announced a new vision for the Corporation. He envisions the FDIC providing timelier and
better banking-related information than anyone else; recognizing and responding to emerging
risks before they threaten safety and soundness or harm consumers; and becoming the authority
and resource that the Congress, media, and others turn to for guidance. The OIG fully supports
that vision for the Corporation and will do all it can, in partnership with the Corporation, other
financial regulatory agencies, and the Inspector General community, to help make it a reality.

The Chairman has also developed annual corporate performance objectives to accomplish the
Chairman’s vision. These performance objectives included a reorganization during 2002 that
continued into 2003 with a reduction- in- force that resulted in a streamlined but more agile and
efficient workforce of the FDIC. The Chairman is further challenging his executive team with a
leadership agenda that includes additional corporate and division/business line initiatives in the
areas of policy leadership, management of the insurance funds, and stewardship. These
initiatives, together with the performance measures under the FDIC’s GPRA performance plans,
are serving to foster an environment of accomplishment and a renewed focus on results.

Management and Performance Challenges Facing the FDIC

In the interest of improving federal performance government-wide, the Senate Governmental
Affairs Committee has asked Offices of Inspector General to annually identify the most
significant management challenges facing their agencies. At the FDIC, our office has identified
and reported these challenges to the Chairman, the Congress, and others through our Semiannual
Reports to the Congress. In addition, the Reports Consolidation Act of 2000 (RCA) provides
that an agency producing a consolidated performance and accountability report will include a
statement prepared by the agency’s Inspector General that summarizes the most serious
management and performance challenges facing the agency. Beginning in 2002, the FDIC
decided to prepare a consolidated performance and accountability report consistent with the
RCA. This report consolidates the FDIC’s Chief Financial Officers Act Report, the Program
Performance Report, and the traditional Annual Report. In the spirit of the RCA, the Inspector
General provides for inclusion in the consolidated report an annual statement that identifies the
most serious management and performance challenges facing the Corporation. For the 2003


                                                 8
FDIC consolidated report, the OIG identified management and performance challenges in the
following areas.

   •   Adequacy of Corporate Governance in Insured Depository Institutions
   •   Protection of Consumer Interests
   •   Management and Analysis of Risks to the Insurance Funds
   •   Effectiveness of Resolution and Receivership Activities
   •   Management and Security of Information Technology Resources
   •   Security of Critical Infrastructure
   •   Management of Major Projects
   •   Assessment of Corporate Performance
   •   Organizational Leadership and Management of Human Capital
   •   Cost Containment and Procurement Integrity

The OIG will continue to evaluate and annually update the challenges and will pursue audits,
evaluations, investigations, and other reviews that address these challenges and related corporate
risks.

OIG Strategic Challenges and Strategies

The OIG is faced with the challenge of designing audit, evaluation and investigative strategies
which provide the highest value, or greatest return, in identifying and minimizing the
vulnerabilities and risks the Corporation faces as it addresses the formidable challenges
delineated above. As the Corporation identifies its priorities and develops its strategies to
operate into the future, the OIG recognizes it must stay abreast of changes and reevaluate its
priorities and strategies in light of the Corporation’s needs.

Audit and Evaluation Strategies

The Office of Audits develops and issues annual Assignment Plans which present projects
designed to help the FDIC successfully address risks, meet its many challenges, and accomplish
its strategic goals. The plan provides a key mechanism to assist the OIG in achieving its first
strategic goal (value and impact): OIG products will add value by achieving significant impact
related to addressing issues of importance to the Chairman, the Congress, and the public.

The audit assignment plan is based on OIG’s assessment of risks to the FDIC in meeting its
strategic goals and objectives, consistent with the Chairman’s priorities. This risk assessment
process is linked to OIG’s identification of management and performance challenges, as
discussed above. This planning process is coordinated with the FDIC Audit Committee and
senior FDIC management. Reports and products issued under the assignment plan are intended
to produce constructive recommendations for improving programs and activities, and achieve
economies and efficiencies in operations. As such, we believe the projects will enhance FDIC
corporate governance and contribute to the Corporation’s overall risk management activities.

The Office of Audits also maintains flexibility in its assignment planning to meet the changing
needs of the Corporation. In keeping with the OIG’s commitment to perform assignments that
are meaningful to the Corporation and that address corporate risks, the Office of Audits will be


                                                9
mindful of the “next best audit to perform” to ensure that all assignments meet identified and
emerging risks. To this end, during the fiscal year, higher priority assignments may be
substituted for those provided in the assignment plan, as appropriate.

Audit and evaluation work addresses the Corporation's three principal operational areas as
discussed in the FDIC Strategic Plan – Insurance, Supervision, and Receivership Management.
Our work also addresses a fourth area of corporate attention discussed in the FDIC Strategic
Plan – Resource Management. This includes the FDIC’s human, financial, and technological
resources essential to the successful accomplishment of the Corporation’s mission and its annual
performance goals.

The Office of Audits manages its audit and evaluation activity through the following five
operating directorates:

•   Insurance, Supervision, and Consumer Affairs
•   Resolution, Receivership, and Legal Affairs
•   Information Assurance
•   Resource Management
•   Corporate Evaluations (Corporate-wide reviews that crosscut corporate operational areas)

Appendix I depicts how assignments planned to be initiated in FY 2004 relate to the OIG and
FDIC strategic goals and objectives, as well as the management and performance challenges
facing the FDIC. The table reflects a comprehensive approach to addressing FDIC strategic
goals, risks, and management and performance challenges. We recognize that all challenges and
risks cannot be addressed each year but should be addressed over a multi- year period.

Investigative Strategies

OIG investigative strategies and initiatives will add value to the Corporation’s programs and
operations by identifying and investigating instances of fraud, waste, and abuse and other
conduct leading to criminal, civil, and administrative penalties and recoveries. Several key
investigative strategies and initiatives are discussed below.

•   Solvent/Insolvent Banks – OIG continues to work closely with U.S. Attorney’s Offices, the
    FBI, and FDIC’s Division of Supervision and Consumer Protection (DSC) in addressing
    fraud at open and failed institutions. As federal law enforcement resources have had to be
    redirected to terrorism investigations, U.S. Attorneys’ Offices and the FBI are increasingly
    seeking OIG assistance in pursuing investigations of fraud at open and failed institutions. In
    addition to criminal prosecutions stemming from its investigations at open and failed
    institutions, OIG has been working with FDIC Legal and DSC to incorporate appropriate
    enforcement actions in the plea bargaining process, to prohibit offenders from future
    participation in banking.

•   Communication with DSC – OIG communicates on an ongoing basis with DSC on matters
    relating to investigations of fraud at both open and closed institutions. Our relationship with
    DSC with respect to these cases has become increasingly collaborative; as we work together
    to aggressively combat fraud and obstruction that harm FDIC regulated and/or insured
    institutions. To this end, we meet routinely with DSC officials. In addition to quarterly

                                                10
meetings with DSC’s Special Activities Section in Washington, OIG representatives make
regular visits to DSC regional and area offices to hold meetings with DSC managers. On
average we visit two offices a quarter, with a goal of visiting all eight offices each year.
During these meetings, we review our ongoing cases involving open and closed institutions
and discuss issues of mutual concern. In addition to these management meetings, OIG agents
have been making presentations to DSC staff at various field offices, to provide an overview
of our Office of Investigations operations and address our role in investigating financial
institution fraud. OIG continues to work with DSC and other FDIC program offices in
developing and presenting training on “lessons learned” from our cases that may provide
insight into bank failures and red flags of fraud at financial institutions.

In addition, OIG issues quarterly reports to DSC officials outlining the status of
investigations involving open and failed institutions. At the conclusion of these cases, we
also issue memorandum reports to DSC outlining the results of the investigation. As actions
of significance occur in our cases, we provide DSC with relevant highlight reports, copies of
indictments, and relevant press releases and news articles. Working collaboratively, OIG and
DSC has issued a revised agreement relating to our investigations at open institutions, under
which DSC now notifies OIG of the filing of certain of Suspicious Activity Reports.

Cooperative Efforts with DRR/Legal – OIG continues to coordinate closely with the FDIC’s
Division of Resolutions and Receiverships (DRR) and the Legal Division to address
fraudulent concealment of assets by those who have been ordered to pay FDIC restitution.
Under protocol established between our offices, OIG will undertake a criminal investigation
when DRR/Legal finds evidence that an individual has concealed or fraudulently transferred
assets to avoid payment of restitution to FDIC. OIG and DRR worked together to issue new
guidelines outlining our respective roles at bank closings. OIG continues to attend all bank
closings where fraud is suspected and to coordinate with DRR before, during and after the
closing. The new guidelines are designed to preserve evidence for criminal prosecution
purposes while enabling DRR to access and protect records necessary for resolution of the
institution. OIG continues to hold quarterly meetings with DRR/Legal Headquarters officials
and meets periodically with DRR managers in Dallas. We also issue quarterly reports to
DRR and Legal officials outlining our investigations related to failed institutions, asset
concealment, and fraud in the sale of assets. As significant actions occur in these cases, we
provide DRR with relevant highlight reports, copies of indictments, and related press releases
and news articles. We also forward all judgment orders stemming from our cases to DRR for
their use in collecting court-ordered restitution. OIG has also been working with DRR and
other FDIC officials in identifying red flags and patterns of fraud found in failed bank
institutions. For instance, we recently participated on a team that developed a paper on the
“Root Causes of Bank Failures from 1997 to Present,” for a symposium DRR is sponsoring
on “Why Banks Fail.” Our agents also make periodic presentations to DRR and Legal staff
outlining “lessons learned” from our bank failure investigations.

Electronic Crimes Team – As computers continue to become a major part of the business
operational environment, the risk of electronic-related fraud has increased. The OIG is
committed to meeting the needs of FDIC and the banking community to combat electronic
fraud. As a result, the OIG established an Electronic Crimes Team (ECT) and computer
forensic laboratory, housed in Washington, DC, to investigate unauthorized computer
intrusions, computer-related fraud impacting FDIC operations, and to provide computer


                                            11
   forensic support to OIG investigations. ECT coordinates with DIRM, and affected FDIC
   program offices in investigating computer-related crimes. In providing computer forensic
   support to OIG investigations, the ECT prepares search warrants for electronic media,
   provides on site support for serving such warrants, conducts laboratory analysis of the
   evidentiary content of electronic media seized during criminal investigations, and provides
   technical advice when computer media are used to perpetrate traditional crimes. The ECT
   also attends all bank closings where fraud is suspected, and images computer data for
   evidentiary purposes in resultant criminal prosecutions. The ECT also shares copie s of the
   imaged files with FDIC for their use in resolving the institution and pursuing bond claims.
   The ECT has also been assisting DRR/Legal as they research the feasibility of creating
   imaging capability of their own. OIG ECT agents receive intensive training on how to
   search, seize, and analyze computer systems and evidence encountered during the course of
   an investigation and during execution of search warrants. The ECT has made training
   presentations to FDIC staff at various conferences and meetings to make them aware of the
   ECT capabilities and to outline procedures that should be followed to preserve computer
   evidence. The ECT also worked with DRR in developing guidelines to be followed at bank
   closings for the purpose of preserving evidence. The ECT attends meetings with closing
   team members in advance of scheduled bank closings, to review the bank’s computer
   configuration and reach agreement on how to proceed with securing data at the closing.

Resource Management and Mission Support Strategies

Achieving audit, evaluation, and investigative strategies requires critical mission support
functions and effective management of human capital, technology, and internal processes.
Resource management and mission support activities and strategies are discussed beginning on
page 20.




                                              12
Strategic Goals, Objectives, and Annual Performance Goals

The FY 2004 performance plan identifies 41 specific performance goals that the OIG will
accomplish during the year to help us achieve our strategic goals and objectives. These
performance goals as well as the strategic goals and objectives are presented graphically on the
next several pages. Page 14 presents the OIG’s mission and strategic goals in relation to the
FDIC’s mission and strategic goals. As portrayed on this page, the OIG’s strategic goals link to
and directly support the FDIC’s strategic goals. Presented separately on pages 15-19 are the
OIG’s four strategic goals, which are briefly described below, and the related strategic objectives
and annual performance goals.

•   Value and Impact – Strategic Goal 1 focuses on products adding value to the Corporation and
    achieving significant impact by addressing issues of importance to the Chairman, the
    Congress, and the public. For FY 2004, there are 11 annual performance goals related to
    Strategic Goal 1.

•   Communication and Outreach – Strategic Goal 2 focuses on fostering effective
    communications and relations with the agency, Congress, OIG employees, and our other
    stakeholders. For FY 2004, there are 6 annual performance goals related to Strategic Goal 2.

•   Human Capital – Strategic Goal 3 focuses on aligning and integrating our human capital
    policies and procedures to support the OIG mission. For FY 2004, there are 6 annual
    performance goals related to Strategic Goal 3.

•   Productivity – Strategic Goal 4 focuses on effectively managing our resources to improve the
    quality and efficiency of our products and processes. For FY 2004, there are 18 annual
    performance goals related to Strategic Goal 4.

In recognizing the dynamic nature of planning and performance measurement, we are committed
to the continued development of performance indicators and goals that better measure the impact
and results of our work.




                                                13
           Tree Diagram of OIG Goals and Objectives – FY 2004

                                                                  OIG Mission Statement
      FDIC Mission Statement



       The FDIC contributes                                       The OIG promotes the economy,
       to stability and public                                    efficiency, and effectiveness of
       confidence in the                                          FDIC programs and operations
       nation’s financial                                         and protects against fraud,
                                                                  waste, and abuse to assist and
       system
                                                                  augment the FDIC’s contribution
                                                                  to the stability of, and public
                                                                  confidence in, the nation’s
          FDIC Strategic Goals
                                                                  financial system.

        I. Insured
        depositors are
                                                                  OIG Strategic Goals
        protected from loss
        without recourse to
        taxpayer funding
                                                                  SG 1 Value and Impact – OIG
                                                                  products will add value by
                                                                  achieving significant impact
        II. FDIC-                           OIG audit,
                                                                  related to addressing issues of
        supervised                          evaluation,
                                                                  importance to the Chairman, the
        institutions are safe               investigation,
                                                                  Congress, and the public
        and sound                           communication,
                                            human capital, and
                                            resource
                                            management
                                            processes and
        III. Consumers’                     activities directly   SG 2 Communication and
        rights are protected                support the FDIC      Outreach – Communications
        and FDIC -                          Strategic Goals       between the OIG and the
        supervised                                                Chairman, the Congress,
        institutions invest                                       employees, and other
        in their                                                  stakeholders will be effective
        communities



        IV. Recovery to
        creditors of                                              SG 3 Human Capital – The OIG
        receiverships is                                          will align its human resources to
                                                                  support the OIG mission
        achieved




                                                                  SG 4 Productivity – The OIG
                                                                  will effectively manage its
                                                                  resources




Note: The FDIC mission statement shown
above is an abbreviated form of the
Corporation’s official mission statement.                 14
 OIG                Related                                    Related FY 2004 Annual
 Strategic Goal 1   Strategic Objectives                       Performance Goals

                                                       APG 1.0.1 – Complete audit and evaluation
                                                       assignments and issue reports with useful
                                                       information related to 9 of 10 OIG -identified risk-
                       SO 1.1 – The OIG will           based Management and Performance Challenges
                       contribute to ensuring
                       the protection of insured
                       depositors from loss            APG 1.0.2 – 90 percent of the total number of audit
                                                       and evaluation assignments targeted for completion in
                       without recourse to             FY 2004 will be completed and result in reports issued
                       taxpayer funding                containing useful information and recommendations




                                                       APG 1.0.3 – The ratio of monetary benefits to Office
                                                       of Audits operating costs will increase over the ratio
                                                       in the FY 2003 base period
                       SO 1.2 – The OIG will
                       contribute to ensuring
                       the safety and soundness
                                                       APG 1.0.4 – 80 percent of recommendations will be
                       of FDIC-supervised              dispositioned within 12 months of report issuance
                       institutions
SG 1 Value and
Impact – OIG
                                                       APG 1.0.5 – Achieve a level of FDIC senior executive
products will                                          client satisfaction with the audit function 10 percent
add value by                                           above the level achieved in the client survey for 2003
achieving
                       SO 1.3 – The OIG will
significant            contribute to ensuring
impact related         consumers’ rights are           APG 1.0.6 – Achieve a level of FDIC senior executive
to addressing          protected and FDIC-             client satisfaction with the evaluation function 10
                                                       percent above the level achieved in the client survey for
issues of              supervised institutions         2003
importance to          invest in their
the Chairman,          communities
the Congress,
                                                       APG 1.0.7 – 80 percent of closed cases will result in
and the public                                         either reports to management, criminal convictions,
                                                       civil actions, administrative actions, or a combination of
                                                       these elements


                       SO 1.4 – The OIG will
                       contribute to ensuring
                       the achievement of              APG 1.0.8 – 70 percent of cases accepted for
                                                       prosecution will result in convictions, pleas, and/or
                       recovery to creditors of        settlements
                       receiverships


                                                       APG 1.0.9 – Attain a minimum ratio of 9 to 1 of
                                                       financial benefits to investigative cost dollars



                       SO 1.5 – The OIG will
                                                       APG 1.0.10 – Achieve a level of FDIC senior executive
                       contribute to ensuring          client satisfaction with the investigation function 10
                       the effective                   percent above the level achieved in the client survey for
                                                       2003 up to a sustaining level of 80 percent of the
                       management of agency
                                                       maximum score
                       resources


                                                       APG 1.0.11 – Provide useful information and
                                                       analysis on corporate risks, planning, performance,
                                                       policies, and directives within timeframes that are
                                                  15   responsive to corporate needs
 OIG                 Related                              Related FY 2004 Annual
 Strategic Goal 2    Strategic Objectives                 Performance Goals



                                               APG 2.1.1 – Promote effective corporate
                                               communications and relations by sponsoring or
                                               actively participating in various activities including
                                               quarterly meetings, conferences, seminars, task
                    SO 2.1 – Foster            forces, and training
                    effective agency
                    relations and
                    communications
                                               APG 2.1.2 – Achieve a level of FDIC senior
                                               executive client satisfaction with OIG
                                               communications efforts 10 percent above the level
                                               achieved in the client surve y for 2003 up to a
                                               sustaining level of 80 percent of the maximum score




SG 2
Communication
                    SO 2.2 – Foster
and Outreach –                                 APG 2.2.1 – Meet with House and Senate oversight
                    effective
Communications                                 committees twice a year
                    congressional
between the OIG
                    relations and
and the
                    communications
Chairman, the
Congress,
employees, and
other
stakeholders will                              APG 2.3.1 – The OIG Employee Advisory Group
be effective                                   will meet three times a year to serve as facilitator of
                                               communications among OIG staff and as a channel
                                               to advise OIG management regarding employee
                    SO 2.3 – Foster            relations
                    effective OIG
                    employee
                    relations and
                    communications
                                               APG 2.3.2 – Conduct an employee survey to
                                               establish a baseline for employee satisfaction and to
                                               develop strategies to address survey results




                    SO 2.4 – Foster
                    effective relations
                                               APG 2.4.1 – Promote effective communications and
                    and                        relations with other OIG stakeholders to include
                    communications             participating in PCIE activities and meeting
                    with other OIG             quarterly with other federal regulators and
                    stakeholders               representatives of the U.S. General Accounting
                                               Office




                                          16
  OIG                       Related                              Related FY 2004 Annual
  Strategic Goal 3          Strategic Objectives                 Performance Goals




                     SO 3.1 Workforce
                     Analysis and
                     Planning – Develop
                     and implement
                     approaches to assess
                     workforce capability
                     and plan future
                     needs

                                                   APG 3.2.1 – Explore the feasibility of establishing a
                                                   mentoring program within the OIG to meet its unique
                                                   professional development needs

                     SO 3.2 Competency
                     Investments – Target
                     training,                     APG 3.2.2 – Develop guidance for OIG training and
                     development, and              professional development initiatives that complement
                     recruiting that will          core competencies and business knowledge needs
                     enhance OIG staff
                     competencies for
SG 3 Human           accomplishing OIG             APG 3.2.3 – All OIG staff will complete at least 16
Capital – The        strategic objectives          hours/CPEs of training related to the OIG non-
OIG will align                                     technical core competencies
its human
resources to
support the OIG                                    APG 3.2.4 – All OIG staff will enhance their business
mission              SO 3.3 Leadership             knowledge/technical competence in one or more areas
                     Development – Use             through training or professional development
                     development/training
                     opportunities to
                     enhance desired
                                                   APG 3.3.1 – Develop guidance for leadership
                     leadership                    development and training to complement the OIG
                     competencies for
                                                   leadership competency
                     current and future
                     OIG leaders




                     SO 3.4 Results-
                     Oriented High
                     Performance Culture
                     – Develop and
                     nurture a diverse and         APG 3.4.1 – Measure staff satisfaction with
                     results-oriented              performance feedback and develop options for
                     performance culture           enhancing as appropriate
                     that enables and
                     motivates employees’
                     performance



                                             17
    OIG                        Related                                 Related FY 2004 Annual
    Strategic Goal 4           Strategic Objectives                    Performance Goals



                                               APG 4.1.1 – Develop an enterprise risk management
                                               framework for the OIG that will provide an integrated
                                               organization-wide, strategic approach to measuring and
                                               managing OIG’s risks in order to maximize OIG’s value and
                                               help ensure strategic goals are achieved




                                               APG 4.1.2 – Achieve an average of 200 calendar days to
                                               produce final audit and evaluation reports




                                               APG 4.1.3 – Reduce the ratio of Office of Audits’ operating
                                               costs to reports issued so that the FY 2004 operating cost
                                               ratio is 10 percent less than the 2003 baseline cost ratio


SG 4
Productivity –                                 APG 4.1.4 – 70 percent of active cases that have been open
                       SO 4.1 – OIG
The OIG will           processes are           over 1 year will be referred and accepted for prosecution
effectively            efficient
manage its
resources
                                               APG 4.1.5 – 100 percent of employee cases that have either
                                               no criminal prosecution potential or have been declined for
                                               prosecution will be completed in less than 6 months




                                               APG 4.1.6 – 90 percent of investigative reports will be issued
                                               within 30 days, and 100 percent of investigative reports will be
                                               issued within 60 working days, after completion of the case
                                               •


                                               APG 4.1.7 – 140 investigative actions will result from OI cases
                                               during the year




                                               APG 4.1.8 – Legal services are provided within applicable
                                               timeframes 100 percent of the time




                                                  APG 4.1.9 – The Electronic Crimes Team will provide
                                                  preliminary/final analysis of computer media examined
                                                  within 30 days of initial request for computer forensic
                                                  support



                                             18
    OIG                         Related                                  Related FY 2004 Annual
    Strategic Goal 4            Strategic Objectives                     Performance Goals
    (cont.)


                                                APG 4.1.10 – The Electronic Crimes Team will respond to
                                                100 percent of bank closings where fraud is suspected and OI
                                                special agents are participating



                                                APG 4.1.11 – OIG Hotline information will be reviewed and
                                                a determination made as to a course of action within 7
                       SO 4.1 – OIG             business days
                       processes are
                       efficient (cont.)
                                                APG 4.1.12 - Develop an executive information system that
                                                improves the efficiency of OIG management oversight of
                                                inte rnal operations




                                                APG 4.1.13 – Develop an OIG Information Technology
                                                Strategic Plan to guide internal IT priorities and ensure
                                                efficient and secure uses of IT resources within the OIG


SG 4
Productivity –                                     APG 4.2.1 – Develop an OIG-wide Quality Assurance
The OIG will                                       Framework to document the process in place to ensure that
effectively                                        OIG work meets the highest standards of quality
manage its
resources

                                                APG 4.2.2 – Perform at least four (4) internal quality control
                                                reviews (QCR) that, collectively, cover reports issued by all 5
                                                line directorates every 12 months and resolve any significant
                                                matters identified



                       SO 4.2 – OIG
                       products meet            APG 4.2.3 – Achieve a result of zero (0) material instances of
                                                noncompliance with Government Auditing Standards as
                       quality standards
                                                identified in internal quality control reviews




                                                APG 4.2.4 – Conduct internal operational reviews of the
                                                three major investigative offices every 12 months and resolve
                                                signifi cant matters identified




                                                   APG 4.2.5 – Conduct an independent quality review of the
                                                   operations of another IG office under the auspices of the
                                                   PCIE community


                                              19
Resource Management

The effective management of OIG’s human capital, information technology, and internal
processes is essential for efficiently achieving the OIG’s mission, strategic goals and objectives,
and annual performance goals. As discussed in this section of the plan, effective management is
accomplished by providing strategic focus in the following areas.

•   Human Capital
•   Information Technology (and Security)
•   Quality, Risk Management, and Internal Process Improvement

The OIG must maintain vital mission support functions in addition to the audit, evaluation, and
investigative functions discussed in the Strategic Outlook section of this plan. Brief descriptions
of the offices providing this critical mission support are presented below.

Office of Counsel

Independent legal services for the OIG, provided by the Counsel to the Inspector General, are a
key activity. Counsel’s services encompass every facet of OIG operations, including performing
research and providing legal advice, counseling, or opinions on audit-, investigative-, and
management-related topics; conducting or assisting with litigation affecting OIG, including
personnel issues; preparing subpoenas, and seeking to enforce them when necessary; reviewing
proposed legislation and regulations affecting FDIC; processing requests under the Freedom of
Information Act or the Privacy Act and any related appeals; and representing and negotiating on
behalf of OIG clients vis-a-vis other officials within the FDIC, other government agencies,
Congress, or other persons outside the FDIC.

Office of Management and Congressional Relations

Effectively managing the OIG’s business activities is essential to OIG operations. The OIG’s
Office of Management and Congressional Relations is responsible for this activity and handles
an assortment of responsibilities associated with budgets and financial management, contract
administration, human resources, employee development and training, coordination of office-
wide policy development and communication, information systems development, and the OIG’s
computer network. This unit also manages OIG’s relations with Congress; responds to
congressional inquiries; coordinates OIG’s review of proposed legislation and draft corporation
policies and procedures; and coordinates the writing and production of the OIG’s semiannual
report to the Congress that is required by the Inspector General Act.

Office of Quality Assurance and Oversight

Ensuring the quality of OIG work is a high priority. The Office of Quality Assurance and
Oversight is responsible for maintaining quality assurance and organizational self assessment
programs for OIG activities; performing external quality assurance reviews of other OIGs;
internal coordination and external oversight of risk management and internal control activities
under the Chief Financial Officers Act and the Federal Managers’ Financial Integrity Act; and


                                                20
internal and external coordination of strategic and performance planning and reporting activities
under the Results Act.

Human Capital

Corporate Environment

The FDIC has been in a downsizing mode for the past 10 years as the work associated with the
banking and thrift crises of the late l980s and 1990s has been largely accomplished. During the
past year, a number of division mergers and reorganizations took place and the Corporation
concluded its 2002 buyout/retirement incentive programs. As of September 30, 2002, the
FDIC’s buyout/retirement incentive programs achieved a reduction of 699 staff and $80 million
projected savings in future operating costs. In total, over the past 10+ years, the workforce
(combined from the FDIC and the Resolution Trust Corporation) has fallen from approximately
23,000 in 1992 to 5,500 as of September 30, 2002. By July 2003, the Corporation has
substantially completed the required downsizing and corrected existing skills imbalances by
carrying out other features of its comprehensive program such as solicitations of interest,
reassignments, retraining, outplacement assistance, and reductions- in-force. As the Corporation
adjusts to a smaller workforce, it must continue to ensure the readiness of its staff to carry out the
corporate mission.

The Corporation has predicted that almost 20 percent of FDIC employees will be eligible to
retire within the next 5 years. The Corporation must continue to conserve and replenish the
institutional knowledge and expertise that has guided the organization over the past years.
Hiring and retaining new talent will be important, and having hiring and retention policies that
are fair and inclusive remain a significant component of the corporate diversity plan.

OIG Human Capital Actions and Strategies

The OIG is undergoing a similar shift in the way we perceive our organization and our business
with a smaller, more flexible workforce that is aligned with our mission. The OIG took steps
during 2002 in accord with the Chairman’s vision, including major efforts to streamline our
workforce and work processes. The OIG participated in the Corporation’s early retirement and
buyout program and modified our structure to realign OIG operations with the critical business
lines of the FDIC, geographically as well as functionally. This resulted in the separation of 54
employees, or 25 percent of our April 2002 staff level, and the closure of our San Francisco
office during 2002. The OIG plans to have a permanent staff level of 168 in 2003, compared
with the 215 staff authorized for 2002. As a result, our 2003 corporate budget is 12 percent less
than our 2002 budget.

While restructuring to a smaller workforce, the OIG continues to look to increasing the value of
our people and the performance capacity of the OIG. Therefore, strategically managing our
human capital in a high-performance culture will be a top priority in our organization. The OIG
issued a Human Capital Strategic Plan in 2002, which seeks to align and integrate our human
resource policies and practices with the OIG mission. As shown on the Tree Diagram of OIG
Goals and Objectives on page 13, the alignment of our human resources with our mission is one
of our four strategic goals. Our Human Capital Strategic Plan complements the other strategic
goals by aligning and integrating human resource policies and practices with our business


                                                 21
practices. It also reflects the Chairman’s recent goals of having the right number of people with
the needed skills in the right places. Our human capital plan focuses on four areas that are key to
maximizing the return on our human capital and sustaining a high-performance organization:
workforce analysis; competency investments; leadership development; and a results-oriented,
high-performance culture.

Strengthening our workforce capabilities will be particularly important in the next several years
to prepare and position us for the future in light of our smaller workforce. As part of the Human
Capital Strategic Plan objectives on workforce analysis and competency investments, we are:

•   Preparing inventories of existing workforce knowledge and workforce knowledge needed,
    and identifying gaps in knowledge needed to accomplish future work;
•   Identifying and linking competencies needed for every OIG position and aligning them with
    job descriptions and position selecting factors;
•   Developing strategies for closing the identified workforce knowledge gaps, including
    training, developmental assignments, recruitment and hiring, and contracting;
•   Identifying OIG leadership competencies that are consistent with a results-oriented, high-
    performance culture that effectively manages human capital; and
•   Better aligning performance criteria and expectations and rewards/consequences with
    accomplishing the OIG strategic mission and goals.

Skills Requirements

Reviewing FDIC programs and operations requires a staff with a broad range of knowledge,
skills, and abilities. The OIG staff is comprised of auditors, criminal investigators, attorneys,
program analysts, computer specialists, and administrative personnel. This highly professional
staff holds numerous advanced educational degrees and has attained professional certifications,
including certified public accountants, certified internal auditors, and certified fraud examiners.
To maintain professional proficiency, each of our staff attains an average of about 50 hours of
continuing professional education and training annually. OIG staff must also possess and
maintain the necessary skills and abilities of their respective disciplines in order to meet the
unique objectives and challenges of their assignments. For example:

•   Auditors are required to have knowledge of accounting principles and the methods and
    techniques applicable to government auditing; knowledge of government organizations,
    programs, activities, and functions they are reviewing; knowledge of applicable statutes and
    regulations; and the skills to communicate clearly and effectively, both orally and in writing.
    In addition, depending on the type of audit being conducted, auditors may have to possess
    knowledge of business, finance, and economics and of other agencies’ programs as they
    relate to FDIC’s work, as well as skills in research, statistical sampling, information systems
    auditing, or other specialized skills as needed.

•   Criminal investigators are required to have a thorough and current knowledge of federal
    criminal procedure and laws concerning search and seizure, arrests, advisement of rights,
    surveillance, and the right to privacy - both personal and financial. They should have
    knowledge of accounting principles, be proficient at interviewing and eliciting information
    from all types of sources, and be able to communicate clearly and effectively, both orally and
    in writing. Because of the complex mission of the FDIC, in addition to the traditional skills

                                                 22
    associated with their activities, criminal investigators in the FDIC OIG must have significant
    knowledge of federal bank regulations and the unique accounting principles associated with
    modern financial institution activities. Criminal investigators must be able to react quickly
    and appropriately to changing situations and be able to apply their expertise in use-of- force
    principles, self-defense, and firearms. The OIG has several agents who are trained as
    instructors in defensive tactics and firearms. In addition to their investigative duties, these
    agents provide support and advice to our National Training Officer in administering our
    training program. The OIG also has an Electronic Crimes Team, staffed by agents who have
    been trained and certified as seized computer evidence specialists.

New Skills Requirements

Banking activities related to cyberbanking, electronic cash, and other highly technical financial
delivery systems pose increasing risks that may impact the safety and soundness of the banking
industry and, consequently, the deposit insurance funds. In the current technological
environme nt, the banking industry is far more vulnerable to new types of electronic fraud and is
becoming more globalized. As such, we need to become more adept at combating computer-
related fraud such as identity theft; searching the Internet for banks operating in a fraudulent
manner; and searching computers that have been used in the commission of fraud. The transition
to a “paperless” environment and a greater reliance on automated systems underscores the need
for OIG staff to possess the necessary computer skills and knowledge to audit and investigate
effectively in this type of environment.

Analyzing Existing and Needed Workforce Knowledge and Identifying Gaps

To better analyze existing needed business knowledge and skills, we created the OIG Business
Knowledge Inventory System (BKIS). This inventory system was created by researching other
efforts in the federal government and through input from the entire OIG workforce. BKIS will
enable the OIG to create a valuable database of business knowledge of OIG employees and
determine where knowledge gaps may exist. BKIS was administered to OIG staff in
March/April 2003 and we received responses from 81 percent. We have performed detailed
analyses of the results and will be providing this information to individua l offices for each to
identify potential gaps in knowledge. The information is being organized so each office can
electronically review each office component. Offices will then prepare action plans specifying
how to address any knowledge gaps, e.g., formal training, developmental assignments,
recruitment, or contracting.

Integrating Improved Core Competencies into Human Capital System

Consistent with our Human Capital Strategic Plan, OIG has initiated a multi- year project to
integrate improved core comp etencies into its Human Capital System. The OIG Competencies
Project aims to identify those skills and behaviors that staff members need to contribute to the
overall mission and goals of the OIG. These core competencies then form the basis of an
integrated and strategically aligned human capital system, which includes:

•   Position descriptions
•   Performance management
•   Individual training and development


                                                 23
•   Selection and promotions
•   Organizational development

The OIG Competency Model will enable us to:

•   Align the human resource activities with OIG strategic planning;
•   Replace outdated performance criteria developed years ago;
•   Communicate new performance expectations clearly for every employee;
•   Implement a cornerstone in the Human Capital Strategic Plan around which future efforts;
    including a training curriculum will be developed; and
•   Modernize OIG human resource functions with the best practices of high performance
    organizations in government and the private sector.

Six competencies have been developed that we believe all OIG staff need to contribute
successfully to the OIG mission and goals. These competencies form the basis for expectations
of every OIG employee, including executives.

•   Achieves Results. Assumes responsibility and accountability for achieving results in support
    of the FDIC and OIG missions and goals.
•   Communicates Effectively. Effectively communicates orally and in writing to promote
    mutual understanding, effective decision- making, and information gathering.
•   Demonstrates Teamwork. Builds and maintains inclusive, responsive, and constructive
    working relationships based on mutual respect and a shared commitment to the OIG’s
    mission, values, and goals.
•   Exhibits Technical Competence. Demonstrates the technical knowledge, skills, and abilities
    necessary to effectively carry out the duties and responsibilities of his or her position.
•   Demonstrates Responsibility and Self-development. Takes personal initiative to improve
    individual and organizational performance and promote the OIG’s values and goals, while
    exhibiting high standards of professional and ethical behavior and integrity.
•   Leads Effectively (supervisors only). Creates and maintains a high performance climate
    where all employees are challenged and encouraged to achieve excellence.

Each of these competencies has been further defined with subsidiary criteria describing the types
of performance included under the competency. Full integration of these core competencies into
OIG’s human capital system will help develop a greater results-oriented, high performance
culture and enhance accomplishment of OIG strategic goals and objectives.




                                               24
Information Technology Management and Security

Corporate Environment

Information technology (IT) continues to play an increasingly greater role in every aspect of the
FDIC mission. As corporate employees carry out the FDIC’s principal business lines of insuring
deposits, examining and supervising financial institutions, and managing receiverships, they rely
on information and corresponding technology as an essential resource. Information and analysis
on banking, financial services, and the economy form the basis for the development of public
policies and promote public understanding and confidence in the nation’s financial system. IT is
a critical resource that must be safeguarded.

Accomplishing IT goals efficiently and effectively requires sound IT planning and investment
control processes. The Corporation must constantly evaluate technological advances to ensure
that its operations continue to be efficient and cost-effective and that it is properly positioned to
carry out its mission. Management of IT resources and IT security have been the focus of
several laws, such as the Paperwork Reduction Act, the Government Information Security
Reform Act (GISRA), and most recently, the Federal Information Security Reform Act of 2002
(FISMA). Similar to the requirements of GISRA, under FISMA, each agency is required to
report on the adequacy and effectiveness of information security policies, procedures, and
practices and compliance with information security requirements of FISMA.

The Corporation is working to implement many sound information system security controls, and
to fully integrate these into an entity-wide program. Additionally, efforts to identify sensitive
data, plan for and fund essential security measures, incorporate security requirements in FDIC
contracts, enhance software configuration management, and measure the overall performance of
the information security program need continued attention. In February 2002, the FDIC’s
Information Security Strategic Plan was approved to address these deficiencies. The plan
provides for a sound information security structure and assures the integrity, confidentiality and
availability of corporate information assets by proactively protecting them from unauthorized
access and misuse. Additionally, a new Financial Environment project has been initiated to
analyze the FDIC’s business needs and create a financial environment that can best serve and
support the FDIC in the future.

OIG Environment

The OIG has set a goal to develop an OIG Information Technology (IT) Strategic Plan to guide
internal IT priorities and ensure efficient and secure uses of IT resources within the OIG. The IT
Plan will lay the foundation for identifying, selecting, and using technology to support the goals
and objectives of the Office of Inspector General, especially those goals and objectives detailed
in the OIG’s Strategic Plan and the Human Capital Plan. The OIG IT Plan will be revised and
updated as needed to adapt to changes in office priorities and technology and achieve the best
possible return on investment.

Our overarching IT goal is to better link information technology planning and investment
decisions to program missions and goals, thus helping ensure that OIG managers and staff have
the IT tools and services they require to successfully and productively perform their work. The
OIG IT vision is to enable our managers and staff, through reliable and modern technology, to be


                                                  25
more productive and responsive. To help realize the goal and vision, we will pursue IT solutions
that optimize our effectiveness and efficiency, connectivity, reliability, and security, and serve as
a model organization for employing best practices in managing our IT systems, services and
investments.

Quality, Risk Management, and Process Improvement

The OIG’s value to the FDIC and to the Congress must be based on a foundation of work that is
of the highest quality. Maintaining high standards of quality is essential to achieve the vision,
mission and goals laid out in this strategic plan, consistent with our core values. Ensuring
quality requires an effective program of risk management to effectively assess and address risks
to the OIG and the FDIC. To continue to ensure and enhance our strategic commitment quality
and risk management, we are developing a quality assurance framework and a related enterprise
risk management framework.

These complementary initiatives are designed to ensure that our approach to quality and risk
management is comprehensive, transparent, and based on world class best practices. As a result,
OIG governance will be maintained at the highest level and will incorporate mechanisms for
continual improvement.

Quality Assurance Framework

Corporate governance deficiencies in the private sector and related audit quality failures by the
public accounting profession have been well publicized. Within the federal inspector general
community we have promoted increased attention to audit quality as a key mechanism to prevent
similar problems within the public sector. A key aspect has been our leadership role in the recent
update of the Quality Standards for Federal Offices of Inspector General issued by the
President’s Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency. (These councils, established by executive order, coordinate activities within the OIG
community and establish professional standards.)

Building on and incorporating the Inspector General Act and other related laws and standards,
these updated quality standards for federal IGs encompass the broad range of OIG activities and
functions and address: ethics, independence and confidentiality; professional standards for
audits, inspections, eva luations, and investigations; internal control standards and activities;
internal and external quality assurance programs including peer reviews; strategic and annual
planning and coordination; communicating results of OIG activities; managing human capital;
reviewing legislation and regulations; and receiving and reviewing allegations. Of particular
note, these standards incorporate recent revisions of the Government Auditing Standards (issued
by the Comptroller General of the United States) with which IGs are mandated to comply under
the IG Act. The recent revisions made significant improvements to the independence standard
applicable to audit work.

Consistent with these quality standards, the OIG will develop a quality assurance framework that
will provide a comprehensive documentation of the mechanisms the FDIC OIG has in place to
ensure that OIG work meets the highest level of quality and provides the highest value to the
FDIC and the Congress.



                                                 26
Enterprise Risk Management Framework

Enterprise risk management (ERM) – the process of identifying and analyzing risk from an
integrated, organization-wide perspective – has been circulating and evolving as a business
concept for several years. It is closely related to the Chief Risk Officer (CRO) concept. The
ERM and CRO concepts have gained additional impetus as a result of corporate governance
problems that ha ve arisen in the private sector that led to the recent passage of the Sarbanes-
Oxley Act. Although many organizations are aware of ERM, and various ERM models exist,
there is no single, commonly accepted definition of risk management and no single, generally
accepted framework on how the process should work.

We believe the ERM concept has applicability to public as well as private sector organiza tions
and we have initiated work to analyze its applicability to the OIG and FDIC environments.
During this assessment process, we will evaluate various models including, in particular, a model
currently under development by the Committee of Sponsoring Organizations of the Treadway
Commission (COSO). (COSO is composed of the American Institute of Certified Public
Accountants, the American Accounting Association, Financial Executives International, the
Institute of Internal Auditors, and the Institute of Management Accountants).

Growing out of our assessment, we plan to develop an enterprise risk management framework
for the OIG that will provide an integrated organization-wide, strategic approach to measuring
and managing all of OIG’s risks in order to (1) maximize OIG’s value in relation to risks and (2)
provide reasonable assurance that OIG’s mission and strategic goals and objectives will be
achieved. Because of the interrelationship of OIG risk management and FDIC-wide risk
management, our initiative will necessarily consider the broad FDIC risk management
environment and processes. We expect that the concepts, parameters, and model resulting from
our initiative may be valuable to the Corporation as it continually improves its risk management
programs and practices.




                                                27
External Factors

The following external factors are beyond the OIG’s control, however, they could significantly
affect the achievement of the goals and objectives in this plan.

Budget

One of the most significant external factors that could affect achievement of our goals is our
budget. Unlike other FDIC divisions and offices, the OIG is subject to the congressional
appropriations process. A significant decrease in our budget would adversely affect the
achievement of our strategic goals and objectives by limiting our ability to review FDIC
programs and activities; respond to allegations of fraud, waste, and abuse; and provide training to
our professional staff.

External Requests

The OIG sometimes has to respond to external requests and requirements beyond that planned
for in our workload and resource estimates. The requests often require immediate response and
shifting of work. Examples include congressional inquiries or requests, Chairman’s and
management’s requests, litigation, Freedom of Information Act and Privacy Act requests, hotline
complaints, or other high priority requests for audits, evaluations, and investigations. These
requests can require substantial amounts of time and resource expenditures, with significant
impact on our planned workload. An increase in external requests above projected levels may
have an adverse effect on meeting our stated goals and objectives.

Resolution of Failing Financial Institutions

Uncertainties in the environment in which financial institutions operate present a challenge to
planning OIG resources and activities. The financial institution environment evolves rapidly,
particularly with the acceleration of interstate banking, new banking products and asset
structures, electronic banking, and consolidations. Also, economic conditions can have a
significant effect on the risk profiles of FDIC-insured financial institutions. For instance, an
economic downturn could result in a higher rate of financial institution failures and an increase
in the inventory of assets to be managed and liquidated by the FDIC. An increase in institution
closings and assets to be liquidated could require the OIG to reallocate resources from planned
program area activities to unplanned receivership management activities. Also, the closing of
institutions increases the risk of fraud, which could affect the workload and allocation of
resources for investigative work. Such factors, which are beyond our control, could hinder the
OIG’s ability to achieve its planned goals.


Emerging Technology

Emerging technology has introduced new ways for insured depository institutions to offer
traditional products and services through new delivery channels and, in some instances, has
fostered development of innovative products and services. Examples of new technology include
Internet banking, e-commerce, e-government, and stored-value card systems. Technological


                                                28
advancements have influenced the operating strategies of many insured depository institutions
and other providers of financial services as they seek to compete in the increasingly fast-paced
and globally interdependent environment. With technological advancements, particularly the
increase use of electronic banking initiatives, there is a potential risk that fraud and other
inappropriate activity may occur. A reallocation of OIG resources could be needed to ensure that
such risks are appropriately addressed.

Changes in the Financial Services Industry

Over the past 20 years, unprecedented changes have taken place in the financial services industry
that have significantly changed and shaped the environment in which the FDIC and the other
financial regulatory agencies operate. Deposit interest rates have been deregulated, geographic
restrictions have been eliminated, restrictions on permissible activities and products have been
loosened, and the number of insured commercial banks has decreased dramatically. More major
changes for the financial services industry may be in store in the coming years. In a speech
before the American Bankers Association, Chairman Powell announced that the FDIC would
conduct a major study on the future of banking in America. The study will look at the
underlying trends in the economy and industry and what this suggests for the future, and will
identify emerging policy questions and issues likely to confront both regulators and the industry
over the next decade. Some of these issues may include further industry consolidation, deposit
insurance reform, restructuring the federal banking regulators, combining banking and commerce
activities, the adequacy of corporate governance, and the rapid transfer of customer information
through technology. The OIG will monitor these and other emerging issues as they develop to
ensure they are appropriately addressed through our audits, evaluations, and investigations. This
may require a reallocation of our resources, which could affect the achievement of the goals and
objectives in this plan.




                                               29
Verification and Validation of Performance Data

Performance data will be verified and validated through the following means:

•   The System for Tracking Audits and Reports (STAR) tracks information on audit and
    evaluation projects, reports, recommendations, time, and independent public accountant
    projects, and provide managers with reports on those activities. STAR is used to generate
    performance measurement data reported under the Results Act as well as provide statistics
    for the OIG’s Semiannual Report to the Congress. The data and related reports are analyzed
    by OIG staff for accuracy, reasonableness, and completeness. In addition, other controls
    such as edit checks and supervisory review of data input are used to ensure the validity and
    integrity of the performance data and reports.

•   The OIG’s Office of Investigations database system was designed specifically in part, to
    more accurately track the measures and goals we have established under the strategic and
    annual performance plans. The database system tracks information on investigative cases
    opened and closed; fines, restitutions, and other monetary recoveries; and judicial and
    administrative actions. We also have an inspection regimen set up to closely monitor the
    activities of our investigative offices and to ensure the accuracy of data entered into our
    database.

•   Designated OIG staff will be responsible for collecting, maintaining, and reporting
    performance data. Through our quarterly performance reports, OIG management will review
    reported data for consistency with general performance observations. Each year, we will
    reevaluate whether measures are effectively designed and results-oriented. Based on this
    evaluation, we will determine whether our performance measures should be revised for the
    next planning cycle.

•   Internal control and quality assurance reviews, performed on a cyclical basis to cover all OIG
    functions (audits, investigations, evaluations, and administrative activities), will selectively
    validate performance data on a test basis as appropriate to meet review objectives.




                                                 30
                                                                                                    Appendix



                         Summary of Audit Coverage of Strategic Goals
                          and Objectives and Management Challenges
                                     (By Audit Directorate)


                                                                             Number of       Number of
OIG Strategic Objective                FDIC Strategic Goal or                FY 2004         Management &
(OIG Strategic Goal 1 –                Resource Management                   Planned Audit   Performance
Value and Impact)                                                            Assignme nts    Challenges
                                                                                             Covered
Insurance, Supervision, and Consumer Affairs Directorate
1.1 The OIG will contribute to         I. Insured depositors are protected
ensuring the protection of insured     from loss without recourse to
depositors from loss without           taxpayer funding                            8               1
recourse to taxpayer funding

1.2 The OIG will contribute to         II. FDIC-supervised institutions
ensuring the safety and soundness of   are safe and sound                          4               1
FDIC-supervised institutions

1.3 The OIG will contribute to         III. Consumers’ rights are
ensuring consumers’ rights are         protected and FDIC-supervised
protected and FDIC-supervised          institutions invest in their                3               1
institutions invest in their           communities
communities

Resolution, Receivership, and Legal Affairs Directorate
1.4 The OIG will contribute to         IV. Recovery to creditors of
ensuring the achievement of            receiverships is achieved                   8               1
recovery to creditors of
receiverships

Information Assurance Directorate
1.5 The OIG will contribute to         Resource Management: Human,
ensuring the effective management      financial and technological                13               2
of agency resources                    resources

Resource Management Directorate
1.5 The OIG will contribute to         Resource Management: Human,
ensuring the effective management      financial and technological                11               4
of agency resources                    resources

TOTALS (coverage)
All OIG SG1 Value and Impact           All FDIC Strategic Goals and
Objectives                             Resource Management area                   47           10 (of 10)




                                                        31
